   Report No. D-2007-047      January 23, 2007




        Air Force Acquisition Executive's
Management Oversight and Procurement Authority
   for Acquisition Category I and II Programs
Additional Copies

To obtain additional copies of this report, visit the Web site of the Department of
Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
(703) 604-8932.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Office of the Deputy
Inspector General for Auditing at (703) 604-8940 (DSN 664-8940) or fax (703)
604-8932. Ideas and requests can also be mailed to:

                     ODIG-AUD (ATTN: Audit Suggestions)
                     Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704




Acronyms

For a listing of Acronyms used in this report see Appendix F.
                              INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704




                                                                         January 23,2007
MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
SUBJECT: Report on Air Force Acquisition Executive's Management Oversight and
         Procurement Authority for Acquisition Category I and II Programs
         (Report No. D-2007-047)

        We are providing this report for your information and use. This report is the
second of a series of reports and discusses the adequacy of Air Force milestone
authorities' management oversight of Acquisition Category IC and I1 programs. We
considered management comments on a draft of this report when preparing the final
report.
       The Air Force comments conformed to the requirements of DoD
Directive 7650.3; therefore, no additional comments are required.
       We appreciate the courtesies extended to the staff. Questions should be directed
to Susan J. Lippolis at (703) 604-9081 (DSN 664-9081) or Marc E. Avers at
(703) 604-9064 @SN 664-9064). For the report distribution, see Appendix G. The team
members are listed inside the back cover.


                               By direction of the Deputy Inspector General for Auditing:



                                           Richard B. ~olhffe
                                     Assistant Inspector General
                                 Acquisition and Contract Management
               Department of Defense Office of Inspector General
Report No. D-2007-047                                                    January 23, 2007
 (Project No. D2005-D000AB-0215.000)

      Air Force Acquisition Executive’s Management Oversight and
                 Procurement Authority for Acquisition
                      Category I and II Programs

                                 Executive Summary

Who Should Read This Report and Why? Personnel involved in managing,
overseeing, and procuring Air Force acquisition programs should read this report. This
report discusses issues in the area of program documentation that the Air Force must
address to improve how the Air Force manages and acquires weapon systems.

Background. This report is the second in a series of audit reports that will discuss the
Service Acquisition Executives’ management oversight and procurement authority for
Acquisition Category IC and II programs. This report discusses the management
oversight and procurement authority within the Air Force. The two other reports will
address the management oversight and procurement authority within the Army and Navy.
We initiated this audit because of congressional and DoD interest in whether Service
milestone decision authorities and procurement officials were complying with statutory
and regulatory requirements for acquisitions.

The Air Force relies on its acquisition executives (the Air Force Acquisition Executive
for Acquisition Category IC programs and Program Executive Officers in most cases for
Acquisition Category II programs) to be program milestone decision authorities.
Milestone decision authorities oversee the development and procurement of systems to
meet Air Force mission requirements. In FY 2006, the Air Force acquisition officials
were responsible for overseeing the expenditure of $22.6 billion in research,
development, test, and evaluation funding and $32.5 billion in procurement funding.

To evaluate the adequacy of Air Force milestone decision authority management
oversight and procurement authority, we selected for review 17 Acquisition Category IC
and II programs with development and production costs totaling $73 billion.

Results. For the most part, the Air Force had effectively implemented management
controls in the DoD 5000 series of guidance. We did not find management control
problems like those identified in our previous reviews of the Boeing KC-767A tanker
aircraft and the C-130J aircraft. Specifically, we found no evidence that Air Force
milestone decision authorities used their positions to inappropriately influence the results
of contractor selection and negotiations. Air Force milestone decision authorities
fulfilled their management oversight responsibilities, except for the following instances.

       •   Program managers for 12 of the 17 programs reviewed had not prepared,
           updated, or obtained all required documentation before they scheduled
           program reviews with milestone decision authorities for entry into the system
           development and demonstration or production and deployment phases of the
           acquisition process. Additionally, program managers did not provide
           milestone decision authorities with updated program documentation between
           milestone decision reviews when significant changes affected programs. As a
           result, milestone decision authorities did not have information needed to make
           fully informed milestone decisions. Accelerating the implementation of and
           establishing milestones for updating the System Metrics and Reporting Tool
           will provide milestone decision authorities with information on the status of
           program office documentation and the ability to hold program managers
           accountable for submitting required documentation, which should help
           officials make informed milestone decisions (finding A). (This is a repeat
           finding that was discussed in DoD Inspector General Report No. D-2004-108,
           “Implementation of the DoD Management Control Program For Air Force
           ACAT II and III Programs,” August 16, 2004).

       •   The Large Aircraft Infrared Countermeasures program manager did not
           inform the Assistant Secretary of the Air Force (Acquisition) that the
           oversight of the program should be raised to the level of an Acquisition
           Category I program. As a result, acquisition management oversight was not
           provided at a level commensurate with that required for an Acquisition
           Category I program. Designating the Large Aircraft Infrared
           Countermeasures Program as an Acquisition Category I program will provide
           the program with the appropriate level of oversight (finding B).

       (See the Findings section of the report for the detailed recommendations.)

Review of Internal Controls. The Air Force Acquisition Executive’s internal controls
over the management and procurement of ACAT I and II programs were adequate.

Management Comments. The Air Force concurred with the recommendations;
therefore, no further comments are required. See the Findings section of the report for a
discussion of management comments and the Management Comments section of the
report for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                                            i

Background                                                                   1

Objectives                                                                   2

Findings
     A. Audit Documentation for Air Force Acquisition Programs              4
     B. Acquisition Category Classification                                 9


Appendixes
     A. Scope and Methodology                                               12
          Prior Coverage                                                    14
     B. Glossary                                                            16
     C. Comparison With Conditions Identified on Audits of Boeing KC-767A
        and C-130J Aircraft                                                 21
     D. Description of the 17 Air Force Weapon Systems Reviewed             30
     E. Program Overview for the 17 Air Force Acquisition Programs          35
     F. Acronyms                                                            36
     G. Report Distribution                                                 37

Management Comments
     Department of the Air Force                                            39
Background
    This report is the second in a series of audit reports that will discuss the Service
    Acquisition Executives’ management oversight and procurement authority for
    Acquisition Category (ACAT) IC and II programs. This report discusses the
    management oversight and procurement authority provided within the Air Force.
    Two other reports will discuss the management oversight and procurement
    authority provided within the Army and Navy. We initiated this audit because of
    congressional and DoD interest in whether Service milestone decision authorities
    and procurement officials were complying with statutory and regulatory
    requirements in the acquisition process. The Air Force relies on its acquisition
    executives (the Air Force Acquisition Executive for ACAT IC programs and
    Program Executive Officers for most ACAT II programs) to be program
    milestone decision authorities. In FY 2006, the Air Force acquisition officials
    were responsible for overseeing the expenditure of $22.6 billion in research,
    development, test, and evaluation funding and $32.5 billion in procurement
    funding.

    Air Force Instruction 63-101 “Operations of Capabilities Based Acquisition
    System,” July 29, 2005, states the Assistant Secretary of the Air Force
    (Acquisition) is the senior corporate operating official for acquisition, the
    Air Force Acquisition Executive, who is responsible for overseeing Air Force
    acquisition activities.

    DoD Directive 5000.1, “Defense Acquisition System,” May 12, 2003, states that
    acquisition programs are directed, funded efforts that provide new and improved
    weapons in response to an approved need. The Directive also states that the
    Under Secretary of Defense (USD) for Acquisition, Technology, and Logistics
    (AT&L) is responsible for supervising the entire Defense Acquisition System.
    Within the Defense Acquisition System, the Milestone Decision Authority
    (MDA) has the overall responsibility for a program, including approving program
    entry and continuation in the acquisition process.

    DoD Instruction 5000.2, “Operation of the Defense Acquisition System,” May 12,
    2003, defines acquisition programs by category. ACAT I programs are defined as
    any major Defense acquisition program with an estimated total expenditure for
    research, development, test, and evaluation of more than $365 million in FY 2000
    constant dollars or, for procurement, of more than $2.19 billion in FY 2000
    constant dollars. The USD(AT&L) is the MDA for ACAT I programs, but
    usually delegates MDA to the Service acquisition executives when programs are
    approved for low-rate initial production. Those major Defense acquisition
    programs delegated to Service acquisition executives for MDA responsibility are
    classified as ACAT IC programs. ACAT II programs are any major systems with
    an estimated total expenditure for research, development, test, and evaluation of
    less than $365 million but more than $140 million, or for procurement, of less
    than $2.19 billion but more than $660 million in FY 2000 constant dollars.

    To evaluate management oversight of Air Force MDA, we selected 17 ACAT IC
    and II programs with an estimated development and procurement cost of
    $73 billion. Of the 17 programs, the Assistant Secretary of the Air Force
                                          1
           (Acquisition) was the MDA for 6 ACAT IC programs. For the remaining
           11 ACAT II programs, the Assistant Secretary of the Air Force (Acquisition)
           delegated oversight and MDA to the Program Executive Officers. The process
           used to select the 17 acquisition programs for review is identified in Appendix A.

           Six programs were in the production phase, nine programs were in the system
           development phase, and two programs were in the pre-acquisition phase of the
           acquisition process. In addition, 6 of the 17 programs were listed on the Director,
           Operational Test, and Evaluation Oversight list. See Appendix D for a
           description of the 17 Air Force weapon systems, including identification of
           acquisition phase and acquisition category.

           Scope of Air Force Programs Reviewed. To perform the audit, we coordinated
           with the Air Force, Acquisition Management and Policy Division to identify
           ACAT I and II programs for our review. The ACAT I systems identified included
           the B-2 Extremely High Frequency (EHF), the B-2 Radar Modernization Program
           (RMP), the C-17, the Joint Air-To-Surface Standoff Missile - Extended Range
           (JASSM-ER), the Joint Direct Attack Munitions (JDAM), and the National
           Airspace System (NAS). The ACAT II systems identified included the B-1 Fully
           Integrated Data Link (FIDL), the F-16 Common Configuration Implementation
           Program (CCIP), the F-16 Operational Flight Program (OFP) M4, the F-16 OFP
           M5, the Integrated Broadcast Service (IBS), the Large Aircraft Infrared
           Countermeasures (LAIRCM), the Miniature Air Launched Decoy (MALD), the
           Wind Corrected Munitions Dispenser - Extended Range (WCMD-ER), Roll-on
           Beyond Line-of-Sight (ROBE), Joint Interface Control Officer (JICO) Support
           System (JSS), and Objective Gateway.1


Objectives
           The overall audit objective was to determine whether the Air Force Acquisition
           Executive’s management oversight and the procurement authority for ACAT I
           and II programs were adequate. Specifically, the audit evaluated the program
           management and procurement decision process used by the Air Force Acquisition
           Executive, the Program Executive Officers, and contracting officers. See
           Appendix A for a discussion of the scope and methodology and prior coverage
           related to the audit objectives. For terms used throughout the report, see
           Appendix B. See Appendix C for a discussion of conditions identified on audits
           of Boeing KC-767A and C-130J aircraft and whether the Air Force’s
           implementation of certain management controls specified in the DoD 5000 series
           of guidance and the Federal Acquisition Regulation precluded similar
           occurrences. See Appendix E for an overview of the 17 Air Force acquisition
           programs.

1
    The Tactical Data Link is an umbrella for several sub-programs from which we selected the ROBE,
    JICO JSS, and Objective Gateway to review.




                                                     2
Review of Internal Controls
     The Air Force Acquisition Executive’s internal controls over the management and
     procurement of ACAT I and II programs were adequate.




                                        3
            A. Audit Documentation for Air Force
               Acquisition Programs
            Program managers for 12 of the 17 programs reviewed had not prepared,
            updated, or obtained all required documentation before they scheduled
            program reviews with milestone decision authorities for entry into the
            system development and demonstration or production and deployment
            phases of the acquisition process. Additionally, program managers did not
            provide milestone decision authorities with updated program
            documentation between milestone decision reviews when significant
            changes affected programs. These conditions occurred because Air Force
            procedures did not require program managers to advise milestone decision
            authorities on their progress towards completing, obtaining and updating
            key program documentation. As a result, the USD(AT&L) and the
            Air Force milestone decision authorities did not have current and complete
            information to make fully informed milestone decisions. This is a repeat
            finding from the DoD IG Report No. D-2004-108, “Implementation of the
            DoD Management Control Program for Air Force ACAT II and III
            Programs,” August 16, 2004.


Policy
     DoD Instruction 5000.2 and Air Force Instruction 63-101 establish program
     manager responsibilities for preparing, updating, and obtaining required program
     documentation.

     DoD. DoD Instruction 5000.2 identifies documents that program managers must
     provide at program milestone reviews. Key program documentation includes,
     acquisition program baselines, information support plans, capabilities documents,
     and test and evaluation master plans. Program managers are not required to
     advise the MDA on their progress towards completing and obtaining those
     documents before program initiation, which is usually declared when a program
     enters the system development and demonstration (SDD) phase. However,
     program managers are required to provide those key program documents for the
     MDA to review before program initiation and before subsequent milestone
     reviews are approved.
     Air Force. Air Force Instruction 63-101 states that the program manager is
     responsible for completing all program documentation required by statute and
     including sufficient detail in documentation to facilitate the decision of the MDA.

     The Deputy Assistant Secretary of the Air Force (Acquisition Integration) policy
     memorandum, “Air Force Acquisition Processes,” May 12, 2005, establishes and
     reiterates the Milestone Decision Approval Process and the Acquisition Strategy
     Panel Process. An Acquisition Strategy Panel assesses the viability of a proposed
     acquisition strategy.


                                          4
Submitting Required Program Documentation at Milestone
  Decision Reviews
    Program managers for 12 of the 17 programs reviewed had not prepared, updated,
    or obtained all required documentation before they scheduled program reviews
    with milestone decision authorities for entry into the SDD or production and
    deployment phases of the acquisition process.

    Program documentation that was not available to MDAs included approved
    operational requirements documents (ORDs), approved information support plans
    (ISPs), and test and evaluation master plans (TEMPs). For example, the
    Commander, Aeronautical Systems Center approved the LAIRCM, Phase II,
    Increment II (Guardian Pointer Tracker Assembly) for entering the SDD phase at
    the January 4, 2005, milestone decision review although the program office did
    not have an approved ORD, ISP, or TEMP for the MDA to review as required by
    DoD Instruction 5000.2 and Air Force Instruction 63-101.

    DoD acquisition policy requires an analysis of alternatives (AOA) to assess the
    advantages and disadvantages of alternatives being considered to satisfy system
    capabilities, including the sensitivity of each alternative to possible changes in
    key assumptions or variables. Acquisition policy also requires an approved
    requirements document that contains validated system performance requirements
    so that the program managers and their prime contractors can design a system that
    will meet warfighter needs. DoD policy states that a TEMP is needed for the test
    community to understand the test requirements needed to validate the system
    performance parameters. DoD policy further states an ISP is critical not only for
    system design, but also for test organizations to identify system integration
    problems that also need to be corrected during testing. The following table shows
    the documentation available at the milestone decision reviews for each of the
    17 Air Force acquisition programs we selected.




                                        5
Updated Program Documentation From Program Managers
    Program managers did not provide milestone decision authorities with updated
    program documentation between milestone decision reviews when significant
    changes affected their programs. For example, the Program Executive Officer for
    Weapons issued a development contract for the JASSM-ER, an extended range
    variant of JASSM, on February 20, 2004. The contract decision was not vetted
    within the offices of the Secretary of Defense or the Joint Staff even though the
    changes included a new engine, new inlet, additional fuel capacity, and
    modifications to hardware and software affected by the extended range
    requirement. In addition, even though the Joint Requirements Oversight Council
    reviewed the JASSM Milestone III ORD, which included a reference to an
    extended range capability, it did not fully assess the JASSM-ER requirements
    before contract award. Program managers need to document significant changes
    to program direction in cost, schedule, and performance requirements so that all
    parties affected by the changes, including the intended user of the system and the
    test community, can plan and react accordingly. Updating formal program
    documentation is essential for the program manager to evaluate the effect of the
    changes on all aspects of the program.


Information Needed for Milestone Decision Reviews
    Air Force procedures did not require program managers to advise MDAs on their
    progress towards completing and obtaining key program documentation.
    Recently released Air Force reporting guidance should improve the
    documentation process.

    Reporting on Preparing and Completing Required Program Documentation.
    Prior to February 2006, Air Force guidance did not require program managers to
    advise MDAs on their progress towards completing and obtaining key program
    documentation before program initiation. That documentation is usually required
    when a program enters the SDD acquisition phase. DoD and Air Force policy
    requires program managers to provide those key documents for the MDA to
    review before program initiation and at subsequent program milestone reviews.

    Management Action. In response to DoD IG Report D-2004AE-0025,
    “Implementation of the DoD Management Control Program for Air Force ACAT
    II and III Programs,” August 16, 2004, the Deputy Assistant Secretary of the
    Air Force (Acquisition Integration) committed to the following two actions to
    improve the tracking and oversight of Air Force programs.

       •   Published a new policy on February 24, 2006, for the Monthly Acquisition
           Report emphasizing the ratings and comments within the Air Force’s
           System Metrics and Reporting Tool and its Monthly Acquisition Reports.

       •   Implemented the March 17, 2006, modification to the System Metrics and
           Reporting Tool so that it tracks the completion of documentation to satisfy
           exit criteria for the next phase in the acquisition process.
                                        7
    Although it is premature to evaluate the effectiveness of Air Force actions,
    implementing and adhering to these actions should help complete all required
    documentation prior to each milestone decision and provide the Service
    Acquisition Executive with an assessment of the health and status of Air Force
    programs.


Conclusion
    Without having all of the required program documentation, the milestone decision
    authorities may not be aware of potential or actual cost, schedule, and
    performance problems that may exist on the program at the time of and between
    the milestone decision reviews. In addition, because program managers were not
    providing MDAs with updated program documentation between milestone
    reviews when significant changes affected their programs, MDAs did not have
    information needed to determine whether a program was progressing in
    accordance with the acquisition program baseline agreement.


Recommendation and Management Comments
    A. We recommend that the Air Force Acquisition Executive reemphasize the
    responsibility of the Air Force milestone decision authority to hold program
    managers accountable for submitting approved program documentation as
    required by DoD Instruction 5000.2, “Operation of the Defense Acquisition
    System,” May 12, 2003, before conducting milestone reviews for approval to
    enter into the system development and demonstration and production and
    deployment phases of the acquisition process.

    Management Comments. The Assistant Secretary of the Air Force
    (Acquisition) concurred with the recommendation, stating that the recommended
    action will be completed by January 31, 2007.




                                        8
            B. Acquisition Category Classification
            The Large Infrared Countermeasures program officials did not inform the
            Assistant Secretary of the Air Force (Acquisition) that the program should
            be raised to the level of an ACAT I program. This condition occurred
            because program officials did not believe the funding level for research,
            development, test, and evaluation exceeded the threshold for ACAT II
            programs. As a result, appropriate oversight was not commensurate with
            that required for an ACAT I program.


Policy
     DoD defines an acquisition category as an attribute of an acquisition program that
     determines the program’s level of review, decision authority, and applicable
     procedures. ACAT I programs include two subcategories: ACAT ID programs
     where the MDA is the USD(AT&L), and ACAT IC programs where the MDA is
     the Component Acquisition Executive.

     DoD Instruction 5000.2 requires that programs for which estimated expenditures
     for research, development, test, and evaluation are more than $365 million in
     FY 2000 constant dollars or for which procurement expenditures are more than
     $2.19 billion in FY 2000 constant dollars be classified as ACAT I major
     programs. The Instruction requires the DoD Component to notify the
     USD(AT&L) when cost growth or a change in the acquisition strategy results in
     reclassifying a formerly lower ACAT program as an ACAT I program. Changes
     in the ACAT level should be reported as soon as the DoD Component anticipates
     that the program is within a 10-percent threshold of the next ACAT level. The
     USD(AT&L) is responsible for reclassifying an ACAT designation.



Large Aircraft Infrared Countermeasures Research,
  Development, Test, and Evaluation
     Prior to program review, the LAIRCM program officials did not notify the
     Assistant Secretary of the Air Force (Acquisition) that oversight of the program
     should be raised to an ACAT I. The LAIRCM program exceeded the research,
     development, test, and evaluation thresholds for an ACAT II program after it
     obtained approval to enter the low-rate initial production phase in August 2002.

     Program Growth. Since the Air Force established LAIRCM, the estimated
     program costs grew from $187.6 to $402 million. At the low-rate initial
     production review on August 22, 2002, the program office estimated that the
     program would require $187.6 million for research, development, test and
     evaluation. On January 23, 2004, the NexGen phase was added and on January
     21, 2005, the Guardian phase was added to LAIRCM. As of November 2005, the

                                         9
     estimated cost for research, development, test, and evaluation totaled
     $402 million.

     Funding Status Notification. As of January 2006, program officials had not
     notified the Assistant Secretary of the Air Force (Acquisition) of a potential
     change in LAIRCM from an ACAT II to an ACAT I. Program office officials
     responded they did not notify the Assistant Secretary of the Air Force
     (Acquisition) because expenditures for research, development, test, and
     evaluation did not exceed $365 million in FY 2000 constant dollars. Program
     officials believed that the documented cost information did not accurately depict
     research, development, test, and evaluation costs because FY 2001 funding
     belonged to another program office.

     Air Force Actions. In response to our inquiry regarding the LAIRCM ACAT
     level, the program office recalculated the research, development, test, and
     evaluation costs from $402 million to $354 million and notified the Assistant
     Secretary of the Air Force (Acquisition) that LAIRCM was within the 10 percent
     threshold of an ACAT I program. Officials in the Office of the Assistant
     Secretary of the Air Force (Acquisition) stated they would notify USD(AT&L).
     As of August 2006, personnel from the Office of the Assistant Secretary of the
     Air Force (Acquisition) had not notified USD(AT&L) that LAIRCM was within
     the 10-percent threshold of the next ACAT level as required by DoD
     Instruction 5000.2.


Acquisition Category I Oversight
     Acquisition management oversight of LAIRCM is not commensurate with that
     required for an ACAT I program. By not recommending classifying LAIRCM as
     an ACAT I program in December 2004, the program office avoided additional
     requirements designed to provide decision makers and Congress greater
     knowledge of program cost, schedule, and performance for programs of this
     magnitude. DoD Regulation 5000.2 requires that program managers for ACAT I
     programs prepare selected acquisition reports, unit cost reports, contractor cost
     data reports, and manpower estimates and obtain an independent life-cycle cost
     estimate. ACAT I programs are also required to produce quarterly Defense
     Acquisition Executive Summary reports on current cost and funding data as well
     as to present best estimates for costs beyond the Future Years Defense Plan. The
     LAIRCM Program will benefit from the additional oversight resulting from those
     reporting requirements.




                                         10
Recommendation and Management Comments
    B. We recommend that the Assistant Secretary of the Air Force
    (Acquisition) request that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics designate the Large Aircraft Infrared
    Countermeasures Program as an Acquisition Category I program.

    Management Comments. The Assistant Secretary of the Air Force
    (Acquisition) concurred with the recommendation, stating that the recommended
    action will be completed by January 31, 2007.




                                      11
Appendix A. Scope and Methodology
   We evaluated whether the Air Force Acquisition Executive’s management
   oversight and procurement authority for ACAT I and II programs were adequate.
   Consequently, we focused on the effectiveness of the milestone decision
   authorities’ decision-making processes based on credible, accurate, and timely
   information on deviations in cost, schedule, performance, development status, and
   testing for ACAT IC and II programs reviewed by the Assistant Secretary of the
   Air Force (Acquisition) and three of six Program Executive Offices. We did not
   include the Program Executive Offices for the FA-22, Joint Strike Fighter, and
   Combat and Mission Support in the review because they did not oversee any
   ACAT IC or II programs. In addition, we focused on the effectiveness of the
   Air Force process to solicit, negotiate, and award contracts for the 17 Air Force
   programs selected for review.

   We performed this audit from July 2005 through August 2006 in accordance with
   generally accepted government auditing standards. We reviewed documentation
   dated from June 1981 through December 2005, which we obtained from the
   Assistant Secretary of the Air Force (Acquisition), Program Executive Office,
   Weapons, Eglin Air Force Base, Florida; Program Executive Office, Aircraft
   Systems, Wright-Patterson Air Force Base, Ohio; Program Executive Office,
   Command and Control and Combat Support Systems, Hanscom Air Force Base,
   Massachusetts; and program offices and contracting officers for the 17 Air Force
   programs.

   To accomplish the audit objectives, we took the following steps:

      •   We reviewed DoD Directive 5000.1, “Defense Acquisition System,”
          May 12, 2003, to determine DoD policy applicable to all acquisition
          programs.

      •   We reviewed DoD Instruction 5000.2, “Operations of the Defense
          Acquisition System,” May 12, 2003, to determine whether acquisition
          programs are classified in the proper ACAT.

      •   We reviewed Air Force Instruction 63-101 “Operations Capability-Based
          Acquisition System,” July 29, 2005, to determine whether Air Force
          acquisition programs were assigned the appropriate ACAT and whether
          program managers were complying with mandatory DoD acquisition
          requirements.

      •   We reviewed Federal Acquisition Regulation Part 15, “Negotiating
          Contracts,” to determine contracting officers’ requirements for supporting
          determinations of reasonable contract prices in their price negotiation
          memorandums.




                                      12
   •   We determined whether the conditions identified in audits of the Boeing
       767A Tanker Aircraft (DoD IG Report No. D-2003-29, “Assessment of
       DoD Leasing Actions, August 29, 2003, and DoD IG Report
       No. D-2004-064, “Acquisition of the Boeing KC-767A Tanker Aircraft,”
       March 29, 2004) and the C-130J Aircraft (DoD IG Report
       No. D-2004-102, “Contracting for and Performance of the C-130J
       aircraft,” July 23, 2004) were also occurring in the Air Force programs
       selected for review.

Limitations. We excluded from this review an evaluation of the MDA oversight
provided by the Assistant Secretary of the Air Force (Acquisition), and the
Program Executive Officer for Aircraft Systems for the Joint Primary Aircraft
Training System, C-130J, Distributed Mission Operations, Predator Unmanned
Aerial Vehicle, and KC-135 Global Air Traffic Management programs because of
other DoD IG and GAO ongoing and completed audits of the programs. Due to
limited resources, we did not visit Defense Contract Management Agency offices
at the contractor locations to review documentation for acceptance and delivery of
the systems from the contractors.

Use of Computer-Processed Data. We did not use computer-processed data to
perform this audit.

Use of Technical Assistance. A representative from the Quantitative Methods
Division, Office of the DoD Deputy Inspector General for Policy and Oversight
developed the criteria for selecting the appropriate sample size of Air Force
ACAT I and II programs. The representative stated that based on the number of
Air Force milestone decision authorities, fifty percent of ACAT I programs and
50 percent of the ACAT II programs within each Program Executive Office
should be reviewed. Applying the recommended criteria, we selected 6 ACAT IC
and 11 ACAT II programs for review. The table shows the results of the program
selection process.




                                    13
                                          Program Selection Process

                                                      ACAT IC                        ACAT II
                                             Programs        Reviewed       Programs        Reviewed
    Milestone Decision Authority
    Air Force Acquisition Executive1             10              6               0              0
    Program Executive Offices:
        Aircraft                                 0               0              10               5
        Command and Control & Combat
                                                 0               0               3              4
           Support2
        Weapons                                  0               0               3               2
                 3
        F/A-22                                   0               0               0              0
                               3
        Joint Strike Fighter                     0               0               0              0
        Combat and Mission Support3              0               0               0              0

           Total                                 10              6              16              11

1
    DoD Instruction 5000.2 requires the Air Force Acquisition Executive to be the MDA for ACAT IC
    programs.
2
    Command and Control & Combat Support had three ACAT II programs. We selected two programs, IBS
    and Tactical Data Link. Tactical Data Link is an umbrella program with 25 sub-programs, of which we
    reviewed three. The three sub-programs reviewed were the ROBE, JICO JSS, and Objective Gateway.
3
    Program Executive Officers for F/A-22, Joint Strike Fighter, and Combat and Mission Support did not
    oversee any ACAT IC or II programs. The program executive officer is the MDA for ACAT II
    programs.



           Government Accountability Office High-Risk Area. The Government
           Accountability Office (GAO) has identified several high-risk areas in DoD. This
           report provides coverage of the DoD Weapons System Acquisition high-risk area.


Prior Coverage
           During the last 5 years, the GAO, the DoD Office of Inspector General (DoD IG),
           and the Air Force Audit Agency have issued reports that discussed material
           management control weaknesses in ACAT IC and II programs selected for this
           audit. Unrestricted GAO reports can be accessed over the Internet at
           http://www.gao.gov/. Unrestricted DoD IG reports can be accessed at
           http://www.dodig.osd.mil/audit/reports. Unrestricted Air Force Audit Agency
           reports can be accessed at
           https://www.afaa.hq.af.mil/afck/plansreports/reports.shtml.




                                                      14
GAO
      GAO Report No. GAO-06-368, “Defense Acquisitions: Major Weapon Systems
      Continue to Experience Cost and Schedule Problems under DoD’s Revised
      Policy,” April 14, 2006

DoD IG
      DoD IG Report No. D-2004-108, “Implementation of the DoD Management
      Control Program for Air Force ACAT II and III Programs,” August 16, 2004

      DoD IG Report No. D-2004-102, “Contracting for and Performance of the
      C-130J Aircraft,” July 23, 2004

      DoD IG Report No. D-2004-064, “Acquisition of the Boeing KC-767A Tanker
      Aircraft,” March 29, 2004

      DoD IG Report No. D-2003-129, “Assessment of DoD Leasing Actions,”
      August 29, 2003

Air Force Audit Agency
      Air Force Audit Agency Report No. F2005-0008-FC3000, “Acquisition
      Management of the C-130J Program,” September 28, 2005




                                       15
Appendix B. Glossary
   Acquisition Category. An ACAT is established to facilitate decentralized
   decision making and execution and compliance with statutorily imposed
   requirements. The categories determine the level of review, decision authority,
   and applicable procedures.

   Acquisition Category I. ACAT I programs are major Defense acquisition
   programs. A major Defense acquisition program is defined as a program
   estimated by the USD(AT&L) to require eventual expenditure for Research,
   Development, Test and Evaluation of more than $365 million (FY 2000 constant
   dollars) or procurement of more than $2.19 billion (FY 2000 constant dollars), or
   those designated by the USD(AT&L) to be ACAT I.

   Acquisition Category IC. ACAT IC programs are major Defense acquisition
   programs that the Defense Acquisition Executive had delegated MDA to the DoD
   component Head or the DoD Component Acquisition Executive.

   Acquisition Category II. ACAT II programs are defined as those acquisition
   programs that do not meet the criteria for an ACAT I program, but do meet the
   criteria for a major system. A major system is defined as a program estimated by
   the DoD Component Head to require eventual expenditure for Research,
   Development, Test and Evaluation of more than $140 million in FY 2000
   constant dollars, or for procurement of more than $660 million in FY 2000
   constant dollars or those designated by the DoD Component Head to be ACAT II.
   The MDA is the DoD Component Acquisition Executive.

   Acquisition Program Baseline. The acquisition program baseline prescribes the
   key cost, schedule, and performance constraints that must be achieved by the
   program before the next milestone decision review in the acquisition process.

   Acquisition Strategy. An acquisition strategy is a business and technical
   management approach designed to achieve program objectives within the
   resource constraints imposed. It is the framework for planning, directing,
   contracting for, and managing a program. It provides a master schedule for
   research, development, test, production, fielding, modification, post production
   management, and other activities essential for program success. The acquisition
   strategy is the basis for formulating functional plans and strategies (for example,
   test and evaluation master plan and acquisition plan).

   Acquisition Executive. An acquisition executive is the individual, within the
   Department and Components, charged with overall acquisition management
   responsibilities within his or her respective organization.
   Analysis of Alternatives. An AOA is the evaluation of the operational
   effectiveness, operational suitability and estimated costs of alternative systems to
   meet a mission capability. The analysis assesses the advantages and
   disadvantages of alternatives being considered to satisfy capabilities, including

                                        16
the sensitivity of each alternative to possible changes in key assumptions or
variables. AOAs are not mandatory for ACAT II programs.

Baseline. Baseline is a quantity or quality used as the starting point for
subsequent efforts and progress measurement that can be described in technical,
cost, or schedule terms.

Command, Control, Communications, Computers, and Intelligence Support
Plan. The plan is a required document for all acquisition programs that connect
in any way to the communications and information infrastructure, and includes
both information technology systems and national security system programs. The
plan identifies command, control, communications, computers, intelligence,
surveillance, and reconnaissance needs, dependencies, and interfaces focusing
attention on interoperability, supportability, and sufficiency concerns throughout
a program’s life cycle.

Capability Development Document. A CDD captures the information
necessary to develop a proposed program, normally using an evolutionary
acquisition strategy. The CDD outlines an affordable increment of militarily
useful, logistically supportable and technically mature capability. The CDD
supports a SDD program decision review.

Capability Production Document. A capability production document addresses
the production elements specific to a single increment of an acquisition program.
The Joint Requirements Oversight Council validates and approves the capability
production document before a production and deployment decision review. The
capability production document has key performance attributes that are more
refined than those in a CDD.

Contracting Officer. A contracting officer has the authority to enter into,
administer, and terminate contracts and make related determinations and findings
for the United States Government.
Cost Analysis. A cost analysis is an analysis and evaluation of each element of
cost in a contractor’s proposal to determine reasonableness.

Defense Contract Management Agency. This agency performs the contract
administration function.
Developmental Test and Evaluation. Developmental test and evaluation is any
engineering-type test used to verify status of technical progress, verify that design
risks are minimized, substantiate achievement of contract technical performance,
and certify readiness for initial operational testing. Development tests generally
require instrumentation and measurements and are accomplished by engineers,
technicians, or soldier operator-maintainer test personnel in a controlled
environment to facilitate failure analysis.

Future Years Defense Plan. The Future Years Defense Plan is a DoD database
and internal accounting system that summarizes forces and resources associated
with programs approved by the Secretary of Defense.

                                     17
Independent Cost Estimate. Independent cost estimate is a Life Cycle Cost
Estimate for ACAT I programs prepared by an office or other entity that is not
under the supervision, direction, or control of the Military Department, Defense
Agency, or other Component of the DoD that is directly responsible for carrying
out the development or acquisition of the program, or if the decision authority has
been delegated to a Component, prepared by an office or other entity that is not
directly responsible for carrying on the development or acquisition of the
program.

Independent Government Cost Estimate. An independent government cost
estimate is the cost for goods and/or estimate of services to be procured by
contract.

Initial Capabilities Document. An initial capabilities document, documents the
need for a materiel approach to a specific capability gap derived from an initial
analysis of materiel approaches executed by the operational user and, as required,
an independent analysis of materiel alternatives. The initial capabilities document
defines the gap in terms of the functional area, the relevant range of military
operations, desired effects and time. It also summarizes the results of doctrine,
organization, training, materiel, leadership, personnel, and facilities analysis and
describes why nonmaterial changes alone have been judged inadequate in fully
providing the capability.

Initial Operational Test and Evaluation. An initial operational test and
evaluation is a dedicated operational test and evaluation conducted on production,
or production representative articles to determine whether systems are
operationally effective and suitable and to support a decision to proceed beyond
low rate initial production.

Interoperability. Interoperability is the ability of systems, units, or forces to
provide data, information, materiel, and services to (and accept the same from)
other systems, units, or forces and to use the data, information, materiel, and
services so exchanged to enable them to operate effectively together. National
security system and information technology system interoperability includes the
technical exchange of information and the end-to-end operational effectiveness of
that exchanged information as required for mission accomplishment.

Key Performance Parameters. Key performance parameters (KPPs) are those
minimum attributes or characteristics considered most essential for an effective
military capability. For capabilities documents KPPs are validated by the Joint
Requirements Oversight Council for joint requirements documents, by the
Functional Capabilities Board for requirements documents that jointly affect
Services, and by the DoD component for requirements documents that are
prepared independently by a Service. The CDD and the capability production
document KPPs are included verbatim in the acquisition program baseline.

Life Cycle Cost. Life-cycle cost is the total cost to the government of acquisition
and ownership of a system over its useful life. It includes the cost of
development, acquisition, operations, and support (to include manpower), and
where applicable, disposal.

                                    18
Live Fire Test and Evaluation. A live fire test and evaluation is a test process
that evaluates the vulnerability and/or lethality aspects of a conventional weapon
or conventional weapon system. Live fire test and evaluation is a statutory
requirement for covered systems, major munitions programs, missile programs, or
product improvements to covered systems, major munitions programs, or missile
programs before they can proceed beyond low rate initial production. By law, a
covered system is any vehicle, weapon platform, or conventional weapon system
that includes features designed to provide some degree of protection to users in
combat and that is an ACAT I or II program.

Low Rate Initial Production. Low-rate initial production is the first effort of the
production and deployment phase whose purpose is to establish an initial
production base for the system, permit an orderly ramp-up sufficient to lead to a
smooth transition to full-rate production, and to provide production representative
articles for initial operational test and evaluation and full-up live fire testing. For
major Defense acquisition programs, low rate initial production quantities in
excess of 10 percent of the acquisition objective must be reported in the Selected
Acquisition Report.

Milestone Decision Authority. The MDA is the designated individual with
overall responsibility for a program. The MDA approves program initiation and
entry of an acquisition program into the next phase of the acquisition process.
The MDA is accountable for cost, schedule, and performance reporting to higher
authority, including congressional reporting.

Net-Ready Key Performance Parameters. A net-ready KPP assesses
information needs, information timeliness, information assurance, and network
functions required for information exchange and use. A net-ready KPP consists
of measurable and testable characteristics, performance metrics, or both, required
for the timely, accurate, and complete exchange and use of information to satisfy
information needs for a given capability. The net-ready KPP is documented in
the CDD, the capabilities production document, and the capstone requirements
document.

Operational Assessment. An operational assessment is an evaluation of
operational effectiveness and operational suitability by an independent
operational test activity, with user support as required, on other than production
systems. The focus of an operational assessment is on significant trends noted in
development efforts, programmatic voids, risk areas, adequacy of requirements,
and the ability of the program to support adequate operational testing. An
operational assessment may be conducted at any time using technology
demonstrators, prototypes, mock-ups, engineering development models, or
simulations, but will not substitute for the initial operational test and evaluation
necessary to support full rate production decisions. Normally conducted prior to,
or in support of, milestone C.

Operational Requirements Document. ORD is a legacy document that is a
formatted statement containing performance and related operational performance
parameters for the proposed concept or system. CDDs and Capability Production
Documents developed in accordance with Chairman of the Joint Chiefs of Staff
Instruction 3170.01C replaced the ORD. The instruction allowed a validated and
                                      19
approved ORD, to be used to support program initiation and low-rate initial
production until late June 2005.

Operational Test and Evaluation. Operational test and evaluation is the field
test, under realistic conditions, of any item (or key component) of weapons,
equipment, or munitions for the purpose of determining the effectiveness and
suitability of the weapons, equipment, or munitions for use in combat by typical
military users.

Research, Development, Test and Evaluation. Research, development, test and
evaluation are activities for developing a new system or to expand the
performance of fielded systems.

System Development and Demonstration. The SDD phase (milestone B) is the
third phase of the DoD system acquisition process and consists of system
integration and system demonstration. This phase also contains a design
readiness review at the conclusion of the system integration.

Test and Evaluation Master Plan. The TEMP documents the overall structure
and objectives of the test and evaluation program. It provides a framework within
which to generate detailed test and evaluation plans and to document schedule
and resource implications associated with the test and evaluation program. The
TEMP identifies the necessary developmental test and evaluation, operational test
and evaluation, and live-fire test and evaluation activities.




                                    20
Appendix C. Comparison With Conditions
            Identified on Audits of Boeing
            KC-767A and C-130J Aircraft
   As a result of audits of Boeing 767A Tanker Aircraft (Report Nos. D-2003-129,
   “Assessment of DoD Leasing Actions,” August 29, 2003, and D-2004-064,
   “Acquisition of the Boeing KC-767A Tanker Aircraft,” March 29, 2004) and the
   C-130J Aircraft (Report No. D-2004-102, “Contracting for and Performance of
   the C-130J Aircraft,” July 23, 2004), the Office of the Inspector General
   Department of Defense initiated the series of audits of the Service acquisition
   executives to determine whether management oversight problems identified in
   those reports were more widely occurring across the Military Departments. At
   the April 14, 2005, hearing on management and oversight of Air Force acquisition
   programs, the Senate Armed Services Subcommittee also expressed interest in the
   results of the Inspector General audits concerning whether similar conditions
   were occurring within the other Services. The results of the review of 17 Air
   Force ACAT IC and II programs as they relate to the 15 conditions identified in
   the earlier audits of the two Air Force acquisition programs follow.

   1. Condition. The Deputy Assistant Secretary of the Air Force (Acquisition)
   used her position as the MDA and head of Air Force contracting to conduct and
   inappropriately influence the results of the contract negotiations with Boeing to
   acquire Boeing KC-767 tanker aircraft.

   Question. Did acquisition executives within the Air Force use their positions as
   MDA to conduct and inappropriately influence the results of contractor selection
   and negotiations for the 17 programs selected for review?

   Results. For the 17 programs reviewed, we did not find evidence that acquisition
   executives within the Air Force inappropriately used their position to influence
   the results of contractor selection and negotiations.

   2. Condition. On both the Boeing KC-767A tanker aircraft and the C-130J
   programs, the Air Force contracting officers did not properly justify the use of a
   commercial item acquisition strategy. The Federal Acquisition Regulation states
   that commercial items are any item, other than real property, that is used
   customarily by the public or by non-governmental entities for other than
   governmental purposes. Further, commercial items are those that have been sold,
   leased, or licensed to the general public; or have been offered for sale, lease, or
   license to the general public.

   Question. Did Air Force contracting officers use and properly justify the use of a
   commercial item acquisition strategy on the 17 Air Force programs selected for
   review?

   Results. For the 17 programs reviewed, Air Force contracting officers did not use
   a commercial item acquisition strategy. Rather, Air Force contracting officers
   used Federal Acquisition Regulation Subpart 15, “Contracting by Negotiation.”
                                       21
Report No. D-2006-115 “Commercial Contracting for the Acquisition of Defense
Systems,” September 29, 2006, a concurrent audit, reviewed 17 Air Force
contracts with 31 contract actions valued at $1.9 billion. Of the 17 contracts
reviewed, 15 had inadequate documentation in the contract file to support
contracting officials’ decisions.

3. Condition. On the C-130J program, the Air Force conditionally accepted the
delivery of C-130J aircraft that did not meet commercial contract specifications or
operational requirements.

Question. Did the Air Force acquisition officials conditionally accept delivery of
items before the items met contract specifications and operational requirements
for the 17 Air Force programs selected for review?

Results. As discussed in Appendix A, we did not visit the Defense Contract
Management Agency offices at the contractor locations to determine whether the
systems for the 17 programs reviewed had been accepted before meeting contract
specifications. However, for 6 of the 17 programs, the MALD, B-2 EHF,
B-2 RMP, C-17, LAIRCM, and the JICO JSS, contract terms allow the program
offices to conditionally accept the delivery of items before items met contract
specifications or operational requirements.

4. Condition. On the C-130J program, the Air Force contracting officer did not
adequately manage the financing of the contract. This inadequacy resulted in the
Air Force paying the contractor 85 percent of the price of the aircraft before the
aircraft acceptance inspection and 99 percent of the price of the aircraft on
conditional acceptance and delivery of noncompliant aircraft.

Question. Did Air Force contracting officers properly manage the financing of
end items deliverable on contracts included in the sample of 17 Air Force
programs selected for review?

Results. We did not visit the Defense Contract Management Agency offices at
the contractor locations to determine whether the Air Force contracting officers
properly managed the financing of the end items deliverable on contracts included
in our sample of 17 Air Force programs selected for review. We considered the
review of the Defense Contract Management Agency outside the scope of the
audit.

5. Condition. On the Boeing KC-767A tanker aircraft program, the Air Force
contracting officer negotiated a prohibited cost-plus-a-percentage-of-cost
contract. Cost-plus-a-percentage-of-cost contracts are prohibited by section
2306 (a), title 10, United States Code, “Kinds of Contracts.” The Federal
Acquisition Regulation states that a cost-plus-a-percentage-of-cost contract is a
cost reimbursement contract that provides a contractor a fee based as a specified
percentage of the contractor’s actual cost of accomplishing the work to be
performed.




                                    22
According to the Government Accountability Office, a cost-plus-a-percentage-of-
cost contract occurs on either a fixed price or cost type contract when contracting
officers decide to award a contract where:

   •   Payment for profit is based on a predetermined percentage rate;

   •   A predetermined percentage rate applies to the actual cost of work
       performed;

   •   Contractor entitlement is uncertain at the time of contracting;

   •   Contractor entitlement increases commensurately with increased
       performance costs; and

   •   Government audit rights are excluded.

Question. Did Air Force contracting officers use a prohibited cost-plus-a-
percentage-of-cost system of contracting on the 17 Air Force acquisition
programs selected for review?

Results. For the 17 acquisition programs selected for review, we did not find any
instances where the contracting officers structured and awarded a cost-plus-a-
percentage of cost contract.

6. Condition. On the Boeing KC-767A tanker aircraft program, the proposed
lease did not meet all of the criteria requirements for an operating lease. Further,
the proposed lease would have cost the Air Force more than purchasing the
aircraft. Office of Management and Budget Circular A-11 states that an operating
lease must meet the following six requirements:

   •   the asset is a general-purpose asset rather than being for a special purpose
       of the Government and is not built to a unique specification of the
       Government as a lessee;

   •   there is a private-sector market for the asset;

   •   the present value of the minimum lease payments over the life of the lease
       does not exceed 90 percent of the fair market value of the asset at the
       beginning of the lease term;

   •   the lease does not contain a bargain-price purchase option;

   •   ownership of the asset remains with the lessor during the term of the lease
       and is not transferred to the Government at or shortly after the end of the
       lease term; and

   •   the lease term does not exceed 75 percent of the estimated economic life
       of the asset.



                                     23
Question. Did Air Force contracting officers use and properly justify the use of
leases in accordance with Office of Management and Budget Circular A-11 on the
17 acquisition programs selected for review?

Results. For the 17 programs reviewed, Air Force contracting officers did not
award a lease before awarding contracts.

7. Condition. On the Boeing KC-767A tanker aircraft program, the Air Force
contracting officer did not require Boeing to submit cost and pricing data related
to prior commercial sales to enable the Air Force contracting officer to determine
price reasonableness.

Question. Did Air Force contracting officers require contractors to submit cost
or pricing data to enable the contracting officers to determine price
reasonableness for the 17 acquisition programs selected for review?

Results. For 10 of the 17 programs reviewed, Air Force contracting officers
relied on cost or pricing data to negotiate the contract price and support a price
reasonableness determination. The MALD, LAIRCM, JICO JSS, and ROBE did
not require certified cost or pricing data because contracting officers based
contract awards on adequate price competition. The JDAM Program Office did
not have to obtain certified cost or pricing data because the contractor proposed
prices within the range of the competitively based Production Price Commitment
Curve. The C-17 Program Office obtained a waiver for the requirement to obtain
certified cost or pricing data. The Air Force had not awarded a contract on the
remaining program, Objective Gateway, because it is a pre-acquisition program.

8. Condition. The Assessment of Leasing Actions report stated that the
Air Force took full advantage of section 8159 of the Department of Defense
Appropriations Act for FY 2002 that authorized the Air Force to lease not more
than 100 general purpose Boeing 767 aircraft. With this authority, the Air Force
did not prepare a formal AOA to determine the best possible system solution to
fulfill its need for a tanker aircraft replacement. DoD Instruction 5000.2 requires
that an AOA be completed before program initiation and approved by the
Director, Program Analysis & Evaluation for major Defense acquisition
programs. The AOA is an evaluation of the system’s operational effectiveness
and operational suitability and the estimated costs of alternative systems to meet a
mission capability. The analysis assesses the advantages and disadvantages of
alternatives being considered to satisfy capabilities, including the sensitivity of
each alternative to possible changes in key assumptions or variables.

Question. Did the Air Force prepare an AOA to support the acquisition of the 17
acquisition programs selected for review?

Results. Of the 17 acquisition programs reviewed, six are ACAT IC programs
requiring an AOA. Program managers for four ACAT IC programs prepared an
AOA to support program acquisition. The B-2 EHF was originally designated an
ACAT II program and therefore would not have been required to prepare an
AOA. The C-17 went through a Milestone II decision in 1985, the review of this
program focused on the program evolution of the more current events of the C-17
modification and upgrade program. Therefore, the audit team did not determine if
                                     24
the C-17 program manager prepared an AOA. The remaining eleven acquisition
programs reviewed are ACAT II programs. DoD Instruction 5000.2 does not
require ACAT II programs to prepare an AOA.

9. Condition. On the Boeing KC-767A tanker aircraft program, the Office of the
Assistant Secretary of the Air Force (Acquisition) did not establish a disciplined
acquisition strategy to satisfy the warfighter’s operational requirements. Office of
Management and Budget Circular A-109, “Major System Acquisitions,” states
that Federal agencies should tailor an acquisition strategy for each major system
so that each major system fulfills a mission need and operates effectively in its
intended environment. DoD Instruction 5000.2 requires the program manager to
prepare and the MDA to approve an acquisition strategy before entering the SDD
phase of the acquisition process.

Question. Did the Air Force program managers for the 17 acquisition programs
selected for review prepare acquisition strategies in accordance with Office of
Management and Budget Circular A-109 and DoD Instruction 5000.2?

Results. Of the 17 Air Force programs sampled, 13 programs had an approved
acquisition strategy. The B-2 EHF and the Objective Gateway program offices
did not prepare an acquisition strategy. Because the B-2 EHF and Objective
Gateway are pre-acquisition programs, acquisition strategies are not yet required.
The JASSM-ER acquisition strategy was completed on June 18, 2003. The ORD
Annex was not validated until January 31, 2005. The program office did not
provide an updated acquisition strategy that included the updated ORD Annex.
The LAIRCM Program Office prepared acquisition strategies for the LAIRCM
Phase II efforts; however, those strategies were approved at the wing level
without a current delegation letter delegating approval authority to the wing level.
DoD guidance assigns signature approval for ACAT IC and II programs in the
Air Force to the Assistant Secretary of the Air Force (Acquisition) unless
otherwise delegated. The LAIRCM Program Office could not provide
documentation delegating approval authority from the MDA (PEO/AC)to the
wing level.

10. Condition. On the Boeing KC-767A tanker aircraft program, the program
manager did not plan to complete an ISP (formally referred to as a command,
control, communications, computers and intelligence support plan) before the
milestone decision to acquire the first 100 tanker aircraft. An ISP is needed to
identify, plan, and manage command, control, communication, computers, and
intelligence supportability needs, dependencies between systems, and interface
and interoperability requirements. DoD Instruction 5000.2 requires program
managers to prepare an ISP before the decision reviews for entering into the SDD
and the production and deployment phases of the acquisition process.

Question. Did the Air Force milestone decision authorities require program
managers for the 17 acquisition programs to prepare and obtain approval for ISPs
before the systems development and demonstration and production and
deployment phases of the acquisition process?

Results. Of the 17 Air Force programs sampled, nine were in the SDD phase of
the acquisition process, and the Air Force milestone decision authorities had an
                                     25
approved ISP for two programs. The seven remaining programs in the SDD
phase without an approved ISP were the B-2 RMP, IBS, MALD, WCMD-ER,
LAIRCM, JICO JSS, and ROBE.

Program managers for the MALD, WCMD-ER, and LAIRCM programs did not
obtain C4ISP J-6 approval before entering the SDD phase. The program manager
for the B-2 RMP obtained a waiver for the ISP from the Air Force Chief
Information Officer. Due to the urgent and compelling need for the ROBE
system, the program manager did not develop an ISP. However, the ROBE
program office obtained approval from the Office of the Assistant Secretary of
Defense for Networks and Information Integration to seek a waiver for the ISP
from the MDA. The ROBE Program Office was staffing a waiver package to
obtain waiver approval from the MDA. The JICO JSS Program Office drafted a
C4ISP that did not receive approval from any decision authority. Similarly, the
IBS Program Office did not submit a C4ISP or ISP before entering the SDD
phase. IBS Program Office prepared two C4ISP drafts that did not complete the
coordination cycle. In addition, the IBS Program Office drafted an ISP because
of the change in format from C4ISP to ISP. Program managers for the JICO JSS
and the IBS programs did not obtain a waiver that would preclude the program
office from having a C4ISP at entry into SDD.

For the six programs in the production and deployment phase, two had an
approved ISP. The four remaining programs in the production phase without an
approved ISP were the F-16 CCIP, OFP M4, OFP M5, and the C-17. Program
managers for the F-16 CCIP, OFP M4, and OFP M5 obtained an Interim
Certificate to Operate until J-6 grants Interoperability Certification. However, the
C-17 program surpassed the milestone C decision before the policy requiring an
ISP or C4ISP was implemented.

The B-2 EHF and the Objective Gateway Program had not reached the SDD
phase; therefore, the program manager was not required to prepare an ISP.

11. Condition. The ORD developed by the Air Force did not require that the
first 100 Boeing KC-767 tanker aircraft acquired meet warfighter requirements
for interoperability. As a result, the aircraft acquired would not have fully met the
KPP for interoperability.

Question. Did the Air Force include and require program managers to meet a
net-ready (formerly interoperability) KPP in the CDDs and capability production
documents?

Results. The Air Force identified interoperability or net readiness as a KPP in
their CDDs for seven of the nine acquisition programs that were in the SDD
phase. LAIRCM did not document requirements to guide the second phase of
development. The MALD Program Office had not determined whether the
responsibility to document the net ready KPP was with the platform or the
program. The Air Force requirements community identified interoperability or
net readiness as a KPP for two of the six acquisition programs in production. The
F-16 CCIP program is a modification that integrates six systems into the F-16.
Each system being integrated into the F-16 has a program office, which is
responsible for documenting the net-ready KPPs in an ORD or CDD. Due to time
                                     26
restrictions, the audit team was not able to assess each cornerstone ORD. The
C-17 Program Office was not required to incorporate interoperability KPPs or net
ready KPPs into the ORD Revision 1 and ORD Annex from 1998 and 1999
respectively. However, the C-17 Program Office was required to incorporate an
interoperability requirement into the ORDs. The Joint Requirements Oversight
Council did not validate the updated ORDs, therefore, J-6 was unable to review or
certify C4I requirements. The C-17 Program Office could not provide a waiver of
interoperability certification. Therefore, the C-17 program never received J-6
interoperability requirements certification as required by policy. The OFP M4
and OFP M5 program offices have been granted Interim Certificates to Operate
from the Joint Interoperability Test Command. The B-2 EHF and Objective
Gateway, pre-acquisition programs, are not required to develop net ready KPPs
until the SDD phase.

12. Condition. The Air Force did not ensure that warfighter operational
requirements were adequately established in the contract specifications for
Boeing KC-767A tanker aircraft program. The Air Force also accepted C-130J
aircraft that did not meet contract specifications and therefore could not perform
its operation mission.

Question. Did Air Force program managers ensure that contracting officers
included the requirements identified in the operational requirements or CDDs in
contract specifications before awarding development contracts for the nine
Air Force weapon systems sampled in the SDD phase of the acquisition process?

Results. For the nine Air Force acquisition programs that were in the SDD phase
of the acquisition process, program managers verified that contracting officers
included requirements identified in ORD or CDDs in system contract
specifications.

13. Condition. The Air Force did not comply with statutory provisions for
determining the operational effectiveness, suitability, and survivability of the
Boeing KC-767A tanker aircraft before proceeding beyond low-rate initial
production and committing to the subsequent production of all 100 KC-767A
Tanker Aircraft. Section 2399, title 10, United States Code, “Operational Test
and Evaluation of Defense Acquisition Programs,” states that a major Defense
acquisition program may not proceed beyond low-rate initial production until
initial operational test and evaluation of the program is completed. Further,
section 2366, title 10, United States Code states that a covered system, a system
under the oversight of the Director, Operational Test and Evaluation, may not
proceed beyond low-rate initial production until realistic survivability testing of
the system has been completed.

Question. Did the Air Force MDAs ensure that initial operational test and
evaluation was completed before approving the Air Force acquisition programs
for full-rate production? Also, did the Air Force MDAs ensure that survivability
testing was planned and conducted for covered acquisition programs?

Results. Of the 17 Air Force programs sampled, six were in the production phase
of the acquisition process. The Air Force MDA ensured that program managers
for three of the six acquisition programs in production completed initial
                                     27
operational test and evaluation before approving the programs for full-rate
production. The other programs in production are the CCIP, OFP M4, and OFP
M5. These programs do not follow formal milestone decision processes and
therefore, did not go through a full rate production decision. Nonetheless, the Air
Force Operational Test and Evaluation Center, as the responsible test
organization, conducted other operational testing instead of initial operational test
and evaluation for these programs.

Of the 17 Air Force programs sampled, five were covered acquisition programs
for survivability testing. The Air Force MDAs determined that survivability
testing was conducted for two of the five covered acquisition programs. The
remaining three covered Air Force programs sampled are the B-2 RMP, JASSM-
ER Program, and the B-2 EHF Program. The B-2 RMP Program Office had
planned survivability testing. However, testing was not assessed for the JASSM-
ER Program or the B-2 EHF Program because both programs were in the early
stages of the acquisition process, and survivability testing would not occur until
future milestones.

14. Condition. Costly contract modifications to convert the commercial aircraft
to the KC-767A military configuration will occur because the KC-767A system
Program Office did not fully develop systems engineering requirements.

Question. Did Air Force program managers prepare comprehensive systems
engineering plans for the acquisition programs sampled that were in the SDD
phase of the acquisition process?

Results. Of the 17 Air Force programs sampled, nine were in the SDD phase of
the acquisition process. For two of the nine Air Force acquisition programs
sampled in the SDD phase, Air Force program managers prepared systems
engineering plans to verify that system operational requirements would be met.
Additionally, Air Force program managers prepared draft systems engineering
plans for four of the nine Air Force acquisition programs sampled in the SDD
phase. The program managers will submit the draft systems engineering plans for
MDA approval in conjunction with the next milestone review.

The remaining three Air Force programs sampled in the SDD phase are the IBS,
WCMD-ER, and the ROBE. The IBS and WCMD-ER entered SDD prior to
issuance of the systems engineering policy. The IBS Program Office did not
develop a systems engineering plan because no further milestone decisions are
planned for the program. Conversely, the WCMD-ER does not follow the formal
milestone decision processes; therefore, a systems engineering plan submitted for
MDA approval in conjunction with each milestone review as required by policy
does not apply to the WCMD-ER. However, the WCMD Program Office
developed a systems engineering management plan for the WCMD-ER, which
meets the intent of the systems engineering policy. In addition, the Tactical Data
Link Program Office is developing a systems engineering plan that will cover all
programs under the Tactical Data Link program including ROBE.

15. Condition. On the Boeing KC-767A tanker aircraft and the C-130J
programs, the Assistant Secretary of the Air Force (Acquisition) did not hold
program managers accountable for completing statutory and regulatory
                                     28
requirements. The Boeing Tanker report cited requirements in the areas of
commercial items; two statutory testing requirements; cost-plus-a-percentage-of-
cost system of contracting; leases; and acquisition documentation, such as the
acquisition strategy and requirements documents. The C-130J report cited
requirements in the areas of commercial items, multi-year contract awards, and
testing.

Question. Are the Air Force MDAs holding program managers
accountable for completing statutory and regulatory document
requirements before milestone decisions and program reviews?

Results. Air Force MDAs approved 12 of the 17 programs reviewed for
entry into the SDD or production and deployment phases of the
acquisition process before program managers prepared, updated, or
obtained all required documentation to support the decision to proceed
into the next phase of the acquisition process. Finding A discusses the
adequacy of program documentation supporting program milestone
decision reviews.




                                   29
Appendix D. Description of the 17 Air Force
            Weapon Systems Reviewed

Acquisition Category IC Programs
    B-2 Extremely High Frequency Satellite Communication. The B-2 EHF
    Satellite Communication is under the Air Force Program Executive Office for
    Aircraft Systems (AFPEO/AC) with the Air Force Acquisition Executive assigned
    as the MDA. The B-2 EHF has been in the component advancement development
    phase of the acquisition process since its last milestone review on March 1, 2002.
    The B-2 EHF Satellite Communication System is one element of a system of
    systems that includes the Advanced EHF satellites and the Family of Advanced
    Beyond-Line-of-Site Terminals. In addition, the B-2 EHF Satellite
    Communication System will maintain strategic connectivity for nuclear
    operations and will establish Global Information Grid connectivity.

    B-2 Radar Modernization Program. The B-2 RMP is under the AFPEO/AC
    with the Air Force Acquisition Executive assigned as the MDA. The B-2 RMP
    has been in the SDD phase of the acquisition process since its last milestone
    review on August 17, 2004. B-2 RMP is required to fill a capability gap resulting
    from the Department of Commerce directed redesignation of the current B-2 radar
    operating frequency band. The B-2 RMP modifies the radar system to operate in
    a new, approved radar frequency band. In addition, the B-2 RMP solution
    enables continued B-2 availability by replacing the existing antenna array as well
    as modifying other components of the current system.

    C-17. C-17 is under the AFPEO/AC with the Air Force Acquisition Executive
    assigned as the MDA. The C-17 program has been in the production and
    deployment phase of the acquisition process since its last milestone review on
    November 1, 1995. The mission of the C-17 weapon system is worldwide, direct-
    delivery airlift of U.S. and allied combat forces, equipment, and supplies. The
    C-17 delivers passengers and outsize/oversize/bulk cargo over intercontinental
    distances, provides theater and strategic airlift in both the air/land and airdrop
    modes, and augments aero medical evacuation and special operations missions. It
    provides the flexibility to easily transition among these mission modes by
    allowing rapid in-flight reconfiguration.

    Joint Air to Surface Standoff Missile. JASSM is under the Air Force Program
    Executive Office for Weapons (AFPEO/WP) with the Air Force Acquisition
    Executive assigned as the MDA. JASSM is an autonomous, precision strike
    missile capable of destroying the enemy’s war-sustaining capabilities from
    outside the ranges of their area air defenses. JASSM target types range from re-
    locatable, non-hardened, above ground targets, to fixed, hardened, shallow-
    buried, point



                                        30
    targets. In order to improve the range for the baseline JASSM, the Secretary of
    the Air Force directed program funding for the JASSM-ER in February 2002.
    The JASSM-ER program is currently in the SDD phase of the acquisition process.

    Joint Direct Attack Munition. JDAM is under the AFPEO/WP with the
    Air Force Acquisition Executive assigned as the MDA. JDAM has been in the
    production and deployment phase of the acquisition process since its last
    milestone review on March 23, 2001. The JDAM program provides the Air Force
    and the Navy with an improved aerial delivery guidance capability for existing
    warheads. The Air Force is the Executive Service for JDAM. The improved
    capability is gained through a strap-on inertial guidance kit with the capability to
    receive guidance updates from the Global Positioning System. In addition to
    improving delivery accuracy, JDAM provides the warfighter with a 24-hour,
    autonomous, adverse weather attack capability.

    National Airspace System. NAS is under the Air Force Program Executive
    Office for Command and Control & Combat Support (AFPEO/C2&CS) with the
    Air Force Acquisition Executive assigned as the MDA. The NAS program has
    been in the production and deployment phase of the acquisition process since its
    last milestone review on June 7, 2005. The DoD NAS Modernization Program
    will replace and modernize over 185 existing domestic and overseas DoD Air
    Traffic Control sites and two training sites. This joint DoD and Federal Aviation
    Administration program procures radar and control tower automation systems,
    operator consoles, airport surveillance radars, and communication switches.

Acquisition Category II Programs
    B-1 Fully Integrated Data Link. The B-1 FIDL is under the AFPEO/AC with
    the Program Executive Officer assigned as the MDA. The B-1 FIDL has been in
    the SDD phase of the acquisition process since its last milestone decision review
    on May 16, 2005. This program will provide the B-1 combat forces with
    integrated data links for both line-of-sight and beyond line-of-sight
    communication capability for enhanced situational awareness, command and
    control connectivity, and weapons management. In addition, Fully Integrated
    Data Link will provide the capability to receive and transmit J-series messages
    applicable to B-1 missions/roles by way of Link-16 and Joint Range Extension.
    The B-1 FIDL program will also expand on the existing B-1 common avionics
    architecture.

    F-16 Common Configuration Implementation Program. F-16 CCIP is under
    the AFPEO/AC with the program executive officer assigned as the MDA. The
    F-16 multirole fighter is a single engine, lightweight, high performance air
    vehicle. Its role is twofold: (1) air-to-air and (2) air-to-ground including close air
    support, suppression of enemy air defenses, and interdiction. The hardware and
    software subsystems integrated into the F-16 through CCIP will improve the
    combat capability of the United States Air Force Blocks 40/42 and Blocks 50/52
    F-16s and permit the U.S. to maintain a qualitative advantage over the enemy.
    CCIP consists of the following: Link 16, Modular Mission Computer, Color
    Multifunction Display Set, Joint Helmet Mounted Cueing System, Air-to-Air

                                         31
Interrogator (Block 50/52 only), OFP M3/M3+ Tapes, and Minor Group A
changes for HARM Targeting System Revision 7 compatibility.

F-16 Operational Flight Program M4. The F-16 OFP M4 is under the
AFPEO/AC with the program executive officer assigned as the MDA. This
program is a joint effort between the United States Air Force and European
Participating Air Forces. The F-16 OFP M4 program provides updates to F-16
avionics software/hardware accommodating new and legacy weapon system and
subsystem capabilities. The update incorporates pilot-vehicle interface and other
improvements to keep the F-16 current with evolving tactics, operational
requirements, and threat systems. The F-16 OFP M4 program is a key component
of the F-16 CCIP.

F-16 Operational Flight Program M5. The F-16 OFP M5 is under the
AFPEO/AC with the program executive officer assigned as the MDA. The F-16
OFP M5 program update will provide all-weather target detection and weapon
employment for the suppression of or destruction of enemy air defenses. This
program will support Air Expeditionary Forces deployments to perform multiple
missions directed by command authorities.

Integrated Broadcast Service. IBS is under the AFPEO/C2&CS with the
Air Force Acquisition Executive assigned as the MDA. The IBS program has
been in the SDD phase of the acquisition process since its last milestone review
on May 2, 2001. IBS is an integrated, interactive joint dissemination system,
which provides intelligence producers and information sources the means to
disseminate strategic, operational, and tactical intelligence and information to the
warfighter via multiple transmission paths in accordance with dynamic, user
generated dissemination priorities. IBS migrates the existing tactical data
dissemination systems to a robust and interactive dissemination architecture to
enhance near real time delivery of tactically significant data to commanders to
support decision making processes and to provide vital situational awareness and
rapid threat warning. IBS will provide tailored near real time intelligence such as
threat warning and avoidance, situational awareness, and targeting data to
combatant commands and other warfighters. The primary focus of IBS is on
satisfying the tactical user’s information exchange requirements with secondary
focus on strategic decision makers.

Large Aircraft Infrared Countermeasures. LAIRCM is under the AFPEO/AC
with the program executive officer assigned as the MDA. The LAIRCM system
is an evolutionary acquisition program comprising three phases. Our review
focused on LAIRCM Phase II. Phase II consists of two spiral developments,
NexGen Missile Warning System and Guardian Point Tracker Assembly. On
January 4, 2005, the LAIRCM Phase II- Guardian Point Tracker Assembly was
granted approval for entry into SDD. The Guardian Point Tracker Assembly
spiral builds on the Miniature Pointer Tracker program and adapts it to the
Directional Infrared Countermeasures System Processor for increased
supportability and effectiveness compared to the currently used Small Laser
Transmitter Assembly. The LAIRCM Guardian Point Tracker Assembly with the
Viper laser will be a replacement for the Small Laser Transmitter Assembly, and
is compatible with the current Missile Warning System and the Next Generation
Missile Warning System.
                                     32
Miniature Air Launched Decoy. MALD is under the AFPEO/WP with the
program executive officer assigned as the MDA. The MALD program has been
in the SDD phase of the acquisition process since its last milestone review on
January 6, 2003. The MALD is a low-cost, expendable, air-launched vehicle that
will present the radar signature and operational flight profile of a fighter, bomber
or attack aircraft with sufficient fidelity to stimulate, deceive, decoy or saturate an
integrated air defense system. If MALD is tracked, engaged, or confuses the
command, control, and communications system, it has successfully completed its
mission. It can be used in either a preemptive (before a strike) or reactive (in
conjunction with a strike) suppression of enemy air defense role. In the
preemptive suppression of enemy air defense role, MALD will be launched
against the Integrated Air Defense System to force a reaction/response of the
associated radio frequency systems that can then be monitored by friendly
intelligence, surveillance, and reconnaissance assets and characterize the threat
electronic order of battle.

Tactical Data Links. The Tactical Data Links is under the AFPEO/C2&CS with
the Air Force Acquisition Executive assigned as the MDA. Tactical data links are
used in a combat environment to exchange information such as messages, data,
radar tracks, target information, platform status, imagery, and command
assignments. Tactical data links provide interoperability, local and global
connectivity, and situational awareness to the user when operating under rapidly
changing operational conditions. Tactical data links are used by the Air Force,
Army, Navy, and Marine Corps theater command and control elements, weapons
platforms, and sensors. The Tactical Data Links program is an umbrella system
that consists of 25 sub-programs. Identified below are the three sub-programs,
which were randomly selected for review.

   •   Roll-On Beyond Line-of-Sight Enhancement. ROBE is equivalent to an
       ACAT III due to funding. ROBE did not receive an ACAT designation
       due to its Urgent and Compelling status. ROBE is currently in the SDD
       phase of the acquisition process. In support of the Global Strike Task
       Force, ROBE was developed to dramatically increase the reach of tactical
       communications to global proportions. ROBE is a rapidly installable,
       non-integrated airborne tactical data link node that can be rolled onto a
       tanker aircraft prior to participating in an operation to relay command
       decision-making information anywhere in the world.

   •   Joint Interface Control Officer Support System. The JICO JSS, an
       ACAT III, has been in the SDD phase of the acquisition process since its
       last milestone review on August 13, 2004. JICO JSS will provide an
       automated toolset and information repository to facilitate the Joint
       Interface Control Officer’s ability to overcome Joint and combined
       interface deficiencies related to planning, executing, and managing the
       Joint Multi-Tactical Data Link Network. JSS is a common suite of
       hardware and software that includes input/output devices, data link and
       voice communications systems, computer operating systems, embedded
       training and simulations, and local and remote JICO data repositories.

   •   Objective Gateway. Objective Gateway is a pre-acquisition program that
       facilitates information exchange (forwarding/translation) between
                                      33
       disparate communication systems that include tactical data networks and
       various line of sight and beyond line of sight capabilities (future and
       current technology). There are six Objective Gateways: tactical air,
       ground mobile, strategic objective airborne, ground fixed, maritime, and
       training/test. The Objective Gateway program is currently in the risk
       reduction phase of the acquisition phase.

Wind Corrected Munitions Dispenser. WCMD is under the AFPEO/WP with
the program executive officer assigned as the MDA. The WCMD is an
autonomously guided weapon, born from Desert Storm experience, where adverse
weather and poor visibility significantly limited precision air strikes from medium
to high altitudes. Desert Storm revealed the need for a low cost weapon that
could accurately attack a ground target in any flyable weather, without the aircraft
having to remain in the target area after release. WCMD provides this capability
through use of a guidance tail kit. The replacement tail kit contains an electronics
package, fin actuator system, movable fins, and an electrical interface to the
aircraft. The WCMD has a modification kit known as the WCMD-ER which
allows cluster munitions to be accurately employed at extended standoff ranges.
The WCMD-ER program was cancelled August 9, 2006.




                                    34
Appendix E. Program Overview for the 17 Air Force Acquisition Programs


                                                                                                 Last Program        RDT&E1         Procurement            Total Cost      GWOT Funding2     DOT&E
                               Program Name                                       Phase          Milestone Date    (in millions)    (in millions)         (in millions)     (in millions)   Oversight3   Urgent Need    Milestone Decision Authority
ACAT IC Programs
B-2 Extremely High Frequency                                                      CAD4           March 1, 2002      $      205.4    $          109.0        $     314.4         No             Yes           No        Air Force Acquisition Executive
                                                                                            6
B-2 Radar Modernization Program                                                   SDD           August 17, 2004            739.1               602.9             1,342.0        No             Yes           No        Air Force Acquisition Executive
                                                                                        5
C-17                                                                               PD           November 1, 1995         8,081.4             50,512.5           58,593.9       227.5           No            No        Air Force Acquisition Executive
                                                                                            6
Joint Air-To-Surface Standoff Missile - Extended Range                            SDD                   -                1,200.0              3,756.2            4,956.0        No             Yes           No        Air Force Acquisition Executive
                                                                                        5
Joint Direct Attack Munitions                                                      PD            March 23, 2001            425.9               307.8              733.7         No             Yes           No        Air Force Acquisition Executive
                                                                                        5
National Airspace System                                                           PD             June 7, 2005             147.4              1,363.1            1,510.5        No             Yes           No        Air Force Acquisition Executive


ACAT II Programs
B-1 Fully Integrated Data Link                                                    SDD 6           May 16, 2005             250.0               239.0              489.0         No             No            No                   PEO/AC
                                                                                        5
F-16 Common Configuration Implementation Program                                   PD                   -                  137.2              1,599.6            1,736.8        No             No            No                   PEO/AC
                                                                                        5
F-16 Operational Flight Program M4                                                 PD                   -                  176.9                    0.0           176.9         No             No            No                   PEO/AC
                                                                                        5
F-16 Operational Flight Program M5                                                 PD                   -                  153.9                    0.0           153.9         No             No            No                   PEO/AC
                                                                                            6
Integrated Broadcast Service                                                      SDD             May 2, 2001              117.4                    0.0           117.4         No             No            No                 PEO/C2&CS
                                                                                            6
Large Aircraft Infrared Countermeasures                                           SDD            January 4, 2005           402.3              1,150.4            1,552.7        No             Yes          Yes                   PEO/AC
                                                                                            6
Miniature Air Launched Decoy                                                      SDD            January 6, 2003           153.7               151.1              304.8         No             No            No                PEO/Weapons
Tactical Data Links
     Objective Gateway                                                            PACQ7                 -                  263.0                ____              263.0         No             No            No                 PEO/C2&CS
                                                                                            6
     Roll-on Beyond Line-of-Sight                                                 SDD                   -                     9.0               11.8                20.9        No             No           Yes                 PEO/C2&CS
                                                                                            6
     Joint Interface Control Officer Support System                               SDD           August 13, 2004            115.2                69.7              184.9         No             No            No                 PEO/C2&CS
                                                                                            6
Wind Corrected Munitions Dispenser - Extended Range                               SDD                   -                    65.9              555.6              621.5         No             No            No                PEO/Weapons

                                                                                                                     $12,643.56          $60,428.71         $73,072.27




1
  Research, Development, Technology, and Evaluation Funding
2
  Global War on Terrorism Funding for Air Force Programs in FY 2004 and FY 2005
3
  Director, Operational Test and Evaluation Oversight List
4
  Component Advanced Development
5
  Production and Deployment
6
  System Development and Demonstration
7
  Pre-Acquisition Program


                                                                                                                                        35
Appendix F. Acronyms
ACAT       Acquisition Category
AFPEO      Air Force Program Executive Office
AOA        Analysis of Alternatives
AT&L       Acquisition, Technology, and Logistics
CCIP       Common Configuration Implementation Program
CDD        Capability Development Document
C4I        Command, Control, Communications, Computers, and Intelligence
EHF        Extremely High Frequency
FIDL       Fully Integrated Data Link
IBS        Integrated Broadcast Service
ISP        Information Support Plan
JASSM-ER   Joint Air-to-Surface Standoff Missile - Extended Range
JDAM       Joint Direct Attack Munitions
JICO JSS   Joint Interface Control Officer Support System
KPP        Key Performance Parameter
LAIRCM     Large Aircraft Infrared Countermeasures
MALD       Miniature Air Launched Decoy
MDA        Milestone Decision Authority
NAS        National Airspace System
OFP        Operational Flight Program
ORD        Operational Requirements Document
RMP        Radar Modernization Program
ROBE       Roll-on Beyond Line-of Sight
SDD        System Development and Demonstration
TEMP       Test and Evaluation Master Plan
USD        Under Secretary of Defense
WCMD-ER    Wind Corrected Munitions Dispenser - Extended Range




                                36
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Joint Staff
Director, Joint Staff

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
  Assistant Secretary of the Air Force (Acquisition Integration)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
  Program Executive Office for Aircraft Systems
       Program Manager, B-1 Fully Integrated Data Link
       Program Manager, B-2 Extremely High Frequency
       Program Manager, B-2 Radar Modernization Program
       Program Manager, C-17
       Program Manager, F-16 Common Configuration Implementation Program
       Program Manager, F-16 Operational Flight Program M4
       Program Manager, F-16 Operational Flight Program M5
       Program Manager, Large Aircraft Infrared Countermeasures
  Program Executive Office for Command and Control & Combat Support
       Program Manager, Integrated Broadcast Service
       Program Manager, National Airspace System
       Program Manager, Tactical Data Link
       Program Manager, Roll On Beyond-Line-of Sight Enhancement
       Program Manager, Joint Interface Control Officer Support System
       Program Manager, Objective Gateway




                                          37
  Program Executive Office for Weapons
       Program Manager, Joint Air to Surface Standoff Missile
       Program Manager, Joint Direct Attack Munitions
       Program Manager, Miniature Air Launched Decoy
       Program Manager, Wind Corrected Munitions Dispenser
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                         38
Department of the Air Force Comments




                      39
Team Members
   The department of Defense Office of the Deputy Inspector General for Auditing,
   Acquisition and Contract Management prepared this report. Personnel of the
   Department of Defense Office of Inspector General who contributed to the report
   are listed below.

   Richard B. Jolliffe
   Bruce A. Burton
   Benjamin A. Mehlman
   Susan J. Lippolis
   Marc E. Avers
   Suellen R. Brittingham
   Shaun B. Jeffery
   Melinda M. Oleksa
   Bernard M. Vennemann
   Jeanette A. Owens
   Joyce Tseng
   Zorayma Torres-Alvarez
   Christopher S. Groubert
   Jacqueline N. Pugh
